HHS/OIG-Audit--"Audit of the Public Health Service, Service and Supply Fund for FY 1995,"(A-17-95-00053)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on the Audit of the Public Health Service, Service and Supply
Fund for Fiscal Year 1995," (A-17-95-00053)
August 27, 1996
Complete Text of Report is available in PDF format (491
kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
We audited the statements of financial position of the Public Health Service,
Service and Supply Fund (the Fund), a fund within the Department of Health and
Human Services, and the related statements of operations and changes in net
position (the "Principal Financial Statements") as of and for the
years ended September 30, 1995 and 1994. Our audits were performed in accordance
with generally accepted auditing standards Government Auditing Standards, issued
by the Comptroller General, and Office of Management and Budget (OMB) Bulletin
93-06, "Audit Requirements for Federal Financial Statements" and included
related tests of the financial reporting, internal control structure policies
and procedures, and of compliance with laws and regulations. Our report on the
financial statements and our reports and findings regarding the internal control
structure and compliance with laws and regulations follow this summary. This
report also includes a description of management's responsibilities, of our
responsibilities under the above standards and guidance, and of our methodologies
for fulfilling these responsibilities.
In summary, we found:
The Fund's statements of financial position as of September 30, 1995 and
1994 and the related statements of operations and changes in net position
for the years then ended were presented fairly, in all material respects,
in conformity with the basis of accounting described in the Summary of Significant
Account Policies accompanying the financial statements.
No material internal control weaknesses; however, we noted three reportable
conditions described later in this report;
No material noncompliance with the selected provisions of applicable laws
and regulations tested; and
No material conflicts with management's report on internal controls prepared
under the Federal Managers' Financial Integrity Act of 1982.